<html>
<title> - EXAMINING PFAS CHEMICALS AND THEIR RISKS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   EXAMINING PFAS CHEMICALS AND THEIR
                                 RISKS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

                            Serial No. 116-5

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-062 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                       
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
      Britteny Jenkins, Subcommittee on Environment Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2019....................................     1

                               Witnesses

The Honorable Daniel T. Kildee, Member of Congress
    Oral Statement...............................................     5
The Honorable Brian K. Fitzpatrick, Member of Congress
    Oral Statement...............................................     7
Mr. David Ross, Assistant Administrator for the Office of Water, 
  U.S. Environmental Protection Agency
    Oral Statement...............................................    10
Ms. Maureen Sullivan, Deputy Assistant Secretary of Defense for 
  Environment, U.S. Department of Defense
    Oral Statement...............................................    12

Written opening statements and witnesses' written statements are 
  available in the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents entered into the record during this hearing are 
  listed below/available at: https://docs.house.gov.

* The Toxicology Profile of Perfluoroalkyls; submitted by Rep. 
  Ocasio-Cortez.


 
                EXAMINING PFAS CHEMICALS AND THEIR RISKS

                              ----------                              


                        Wednesday, March 6, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Hill, Tlaib, 
Krishnamoorthi, Ocasio-Cortez, Comer, Armstrong, and Jordan.
    Also present: Representatives Khanna, Kildee, and 
Fitzpatrick.
    Mr. Rouda. Good morning. The subcommittee will come to 
order. Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    This hearing is entitled, ``Examining PFAS Chemicals and 
Their Risks.'' I now recognize myself for five minutes to give 
an opening statement.
    Today we will hold the first hearing of the Committee on 
Oversight and Reform, Subcommittee on Environment. Our country 
is at a crossroads. In fact, our planet is at a crossroads. The 
overwhelming evidence clearly shows climate change and 
environmental damage caused by human kind is no longer open to 
debate, nor are the short-term and long-term consequences if we 
fail to take immediate action.
    For America, it is time to lead by example, just as we have 
repeatedly done throughout our cherished history. America must 
unleash its strength, innovation, and commitment to take on 
these threats. For our children, our grandchildren, and 
generations to come, I ask, I hope and pray that our elected 
leaders will stand together in unison to win this fight. I'm 
looking forward to working with Ranking Member Comer, as well 
as the impressive members of the subcommittee, as a bipartisan 
force to meet this responsibility.
    This morning, the subcommittee will call attention to the 
issue of perfluoroalkyl and polyfluoroalkyl substances, a class 
of man-made chemicals often referred to as PFAS chemicals. 
These chemicals are toxic and poisonous. PFAS chemicals are 
known as forever chemicals. They do not dissolve naturally. So 
they just accumulate, not only in the environment, but also in 
the human body.
    The information available is sufficiently alarming to 
trigger immediate action from this administration. PFAS 
chemicals can lead to serious, adverse health outcomes in 
humans, including low fertility, birth defects, suppression of 
the immune system, thyroid disease, and cancer.
    PFAS chemicals are everywhere. They can be found in goods 
that we use every day--nonstick cookware, waterproof clothing, 
takeout containers, just to name a few.
    PFAS chemicals have also infected our water supplies of 
those who risk their lives for our country--our active 
servicemembers and our veterans--as well as the water supplies 
of communities around military bases. DOD's long history of 
using these chemicals has led to serious water contamination 
issues in and around military bases. In fact, according to the 
DOD, 401 of the Department's military installations have known 
of potential releases of PFAS chemicals.
    We should all be angry that those who are willing to pay 
the ultimate price for our country have to worry about exposure 
to toxic chemicals. We know that Seal Beach, a military 
community in my district, is one of many that has been 
affected.
    Two of our witnesses today, my colleagues, Representative 
Kildee of Michigan and Representative Fitzpatrick of 
Pennsylvania, helped create the bipartisan congressional task 
force on PFAS to advocate for communities around the country 
whose drinking water has been contaminated by PFAS, and I want 
to thank them for their efforts on this issue. Representatives 
Kildee and Fitzpatrick will share with us the stories of their 
constituents who have been exposed to these chemicals and 
express to us the urgency of the Federal Government to act now 
to protect Americans from these toxic chemicals.
    We also have here today Dave Ross from the Environmental 
Protection Agency, Maureen Sullivan from the Department of 
Defense.
    The EPA has the authority to regulate PFAS chemicals, and 
as we sit here today, it has yet to do so. In 2016, the EPA did 
issue a nonbinding health advisory for two of the most toxic 
types of PFAS chemicals, PFOS and PFOA, stating that the 
concentration of these two chemicals in drinking water above 70 
parts per trillion could be hazardous to human health.
    However, last year, the Center for Disease Control and 
Prevention recommended that exposure limits be set 10 and 6.7 
times lower, respectively, from the EPA's suggested thresholds. 
Last month, the EPA issued a PFAS Action Plan, announcing that 
the agency would consider--consider--regulating PFAS chemicals, 
with no indication of when the process might actually be 
completed.
    DOD has taken some steps to reduce exposure to PFAS 
chemicals in and around military installations and to clean up 
contamination. And private companies have made efforts to 
phaseout PFAS chemicals in their production of consumer goods. 
But it is not enough, and we have run out of time.
    DOD has stated that any Federal effort to contain the 
spread of PFAS must be led by the EPA. But to put it 
charitably, it is unclear why the DOD feels justified in 
passing the buck to the EPA.
    DOD must do everything in its power to minimize exposure to 
these chemicals in military communities, particularly in light 
of evidence suggesting DOD's awareness of the toxicity of PFAS 
chemicals since the early 1980's.
    And although this hearing is focused mostly on PFAS 
contamination around military bases, we cannot and must not 
ignore the role of large corporations like 3M and DuPont, whose 
knowledge of how harmful these chemicals are dates back to the 
1970's.
    We're holding this hearing to understand what has gone 
wrong, why the executive branch isn't taking more serious 
action to address the PFAS crisis, to ensure that the Federal 
Government is transparent about contaminated sites so families 
can protect themselves and their children, and what Federal 
agencies, Congress, and the industry can do to minimize 
exposure to PFAS.
    In attendance today are Americans who grew up in and around 
military bases who are suffering due to their exposure to these 
toxic chemicals. Hope Grosse, who grew up next to the Naval Air 
Warfare Center in Warminster, Pennsylvania, was first diagnosed 
with Stage 4 cancer at the age of 25, just a few months after 
her father died of cancer at the age of 52.
    We also have people in attendance here today whose family 
members are suffering due to their exposure to these toxic 
chemicals. Mark Favors is a U.S. Army veteran who had 16 family 
members--16 family members--diagnosed with cancer, all of whom 
lived next to the Peterson Air Force Base in Fountain, 
Colorado. Several of those family members are also veterans.
    We also have other veterans, members of military families, 
and Americans who have gotten sick from drinking water around 
industrial sites in the hearing room today. The subcommittee 
thanks each and every one of you for attending today. We want 
to know what you have experienced.
    These Americans, their families, and their communities can 
no longer wait for the Federal Government to act.
    The chair now recognizes the ranking member, Mr. Comer of 
Kentucky, for five minutes for an opening statement.

    [Prepared statement of Mr. Rouda is available at: https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109020. 
]

    Mr. Comer. Thank you, Mr. Chairman, and thank you all for 
joining us today for the first hearing of the Subcommittee on 
the Environment. I look forward to serving as ranking member of 
the subcommittee in the 116th Congress. I hope to conduct 
oversight of our Federal policies and programs within the 
subcommittee's jurisdiction to make sure our Federal agencies 
are serving our constituents effectively and efficiently. I am 
eager to work together to implement commonsense, reasonable 
solutions to the challenges facing our country.
    We need to ensure access to reliable and affordable sources 
of energy that have proven capable of meeting our country's 
needs. Our Federal policies must facilitate responsible use and 
development of our valuable natural resources. Our businesses 
back home need a regulatory climate that affords them an 
opportunity to succeed without unreasonable burdens and without 
being stifled by unnecessary costs.
    I understand the importance of safeguarding our 
environment, and vested with my ranking membership role on this 
subcommittee, I look forward to examining Federal policies that 
have impacted and will impact our Nation's important natural 
resources.
    In Kentucky's First District, lakes and rivers and the fish 
and wildlife found throughout them are a crucial part of our 
recreational and tourism economy. Additionally, farmers and 
other contributors to Kentucky's vibrant agriculture industry 
depend on access to clean soil and water. As a farmer myself, I 
understand firsthand the importance of ensuring clean soil and 
water for this livelihood, which is absolutely critical to the 
well-being of our citizens, our food supply, and many other 
industries.
    I look forward to hearing more about our Federal agencies--
about how our Federal agencies are working together to protect 
our environment and public health.
    Today we have convened to learn more about a group of 
synthetic chemicals referred to as PFAS, as they are found in a 
number of consumer products and very persistent in the 
environment, according to the U.S. Environmental Protection 
Agency. Most people have been exposed to PFAS in their 
lifetime.
    While this is a very large group of chemicals, most 
attention is focused on two of the more widely studied 
chemicals in the family: PFOA and PFOS. These two chemicals are 
no longer manufactured in the United States. However, as they 
have been associated with certain adverse health effects, 
concerns about their presence in the environment and drinking 
water persist.
    Last month, the EPA released its PFAS Action Plan. 
According to then Acting Administrator Andrew Wheeler, this 
plan is, quote, the most comprehensive cross-agency plan to 
address an emerging chemical of concern ever undertaken, 
unquote, by the agency.
    Today we will learn more about this plan and the tools that 
the EPA currently has at its disposal to address contamination. 
In particular, I hope we can take a look at how the EPA can 
work with communities and water systems where contamination may 
be present.
    As firefighting foam used by the Department of Defense is 
another potential source for introducing PFOA and PFOS into the 
environment, I look forward to getting an update from the 
Department on their efforts to identify potentially 
contaminated sites, ensure clean drinking water on their 
installations, and work with surrounding communities concerned 
about the impact of the Department's activities on their 
drinking water and environment.
    While the EPA's action plan outlines a number of ongoing 
long-term actions, the Department of Defense previously 
indicated they had been working to support efforts to develop 
firefighting foams that do not contain PFOS or PFOA. Our 
conversation needs to include a discussion of a current cleanup 
strategy and any remediation activities that should be taking 
place now.
    Potential drinking water contamination is frightening for 
any community. As such, we need to learn more about what the 
EPA is doing to effectively communicate with states and 
localities and provide information to the general public about 
these substances and which areas might be affected.
    I thank all of our panelists for joining us today. I look 
forward to working with my colleagues, Representatives 
Fitzpatrick and Kildee, on this issue.
    Thank you, Mr. Chairman, and I yield back.

    [Prepared statement of Mr. Comer is available at:https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109020. 
]

    Mr. Rouda. Thank you, Ranking Member Comer.
    Now I want to welcome our colleagues, Congressmen Kildee 
from Michigan and Fitzpatrick from Pennsylvania, and thank them 
for testifying in today's hearing. This subcommittee commends 
your efforts of working across the aisle to advocate the health 
of all Americans.
    At the conclusion of your statements, without objection, 
your written statements will be made a part of the hearing 
record. And also without objection, after your testimony, 
Congressmen Kildee and Fitzpatrick will be permitted to join us 
on the dais and question the witnesses.
    The microphones are sensitive, so please speak directly 
into them. Representative Kildee, you may begin.

STATEMENT OF THE HON. DANIEL T. KILDEE, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Chairman Rouda and Ranking Member 
Comer, for inviting me to speak here today and for your 
leadership on this issue addressing PFAS chemicals, which is a 
public health crisis impacting literally hundreds of 
communities across this country.
    PFAS are a family of man-made chemicals that have been used 
for decades on military bases and in consumer products. These 
chemicals are very effective at being fire-, grease-, and 
water-resistant and have been used in a wide range of products, 
including firefighting foam, as was stated, Teflon, food 
packaging, clothing. And although they are effective, studies 
have shown that PFAS chemicals pose significant health issues 
in people, including cancer, thyroid disease, pregnancy 
complications.
    There are two primary sources of PFAS chemicals. The first 
includes industrial sites where consumer products are made. The 
second, which I will focus my testimony on today, is in the use 
of PFAS in firefighting foam at military installations across 
the country.
    I represent Oscoda, Michigan, a small, rural community. 
It's home to the former Wurtsmith Air Force Base. At one time, 
Wurtsmith was home to part of the Strategic Air Command B-52 
fleet. And in fact, I remember as a kid traveling to that part 
of what is now my district to see those planes come and go. 
Now, unfortunately, according to the GAO, Wurtsmith is one of 
those 401 military sites identified as having known of 
potential release of PFAS after decades of use of firefighting 
foam by the military.
    Veterans who worked at Wurtsmith were certainly exposed to 
PFAS, but nearby Oscoda residents were also affected, since 
PFAS chemicals used on the base have leached into the nearby 
groundwater and private drinking water wells.
    Despite the Defense Department knowing about this PFAS 
chemical contamination at Wurtsmith since 2012, the military 
has failed to act quickly enough to stop contamination coming 
from the former air force base. As a result, PFAS continues to 
leach into the ground and surface water in Oscoda even today.
    Oscoda is just one of many communities across the country 
dealing with this public health crisis. Across America, 
residents, veterans, and families are increasingly fearful of 
exposure to PFAS chemicals. Each week--I'm sure Congressman 
Fitzpatrick shares this with me--each week, Members of Congress 
from around the country tell me about their constituents who 
want greater action to protect public health from these 
dangerous chemicals.
    It's my view that the Defense Department in particular has 
so far failed to act with the required urgency to address this 
growing public health and environmental crisis. Congress and 
the Defense Department have to work together to do more to 
address PFAS chemical contamination, especially in those 
communities that surround current and former military bases.
    Last year, Congress did appropriate nearly $150 million to 
clean up PFAS. Unfortunately, this represents only a fraction 
of the resources that will be needed to clean up hundreds of 
PFAS-contaminated sites, and yet the Defense Department has not 
requested additional funds.
    According to the GAO, of the 401 sites the military 
identified as having PFAS chemicals, the Defense Department has 
only acted at 32 of those to clean up contamination, less than 
10 percent of the identified sites. Clearly, more has to be 
done, and there must be greater urgency.
    So I believe we have to take the following steps to begin 
to properly address PFAS chemical contamination around the 
country. First, we need to stop putting new PFAS chemicals into 
our environment. On military bases and airports around the 
country, firefighting foam containing PFAS is still regularly 
used for training exercises. One way we can significantly 
decrease PFAS from being introduced into the environment is to 
limit the amount of new releases of chemicals, especially for 
training exercises, until we find an effective alternative to 
firefighting foam containing PFAS.
    Next, we need to more fully understand the scope of this 
problem. I introduced legislation--bipartisan legislation--with 
Congressman Jack Bergman, along with Senator Debbie Stabenow, 
to conduct a study to determine the scope of PFAS chemical 
contamination across the country. Unless we know the true scope 
of contamination, we are not in a position to appropriately 
respond and expedite cleanup.
    And, of course, we have to focus on cleanup. This month, 
the EPA took a first step by releasing its long awaited PFAS 
Action Plan, which says that the EPA will eventually regulate 
PFOA and PFOS, two types of PFAS as hazardous substances.
    By recognizing these chemicals as hazardous substances, the 
EPA can then require polluters to clean up the contamination 
that they cause. And so while this is a start, I have to admit, 
I was quite disappointed to see the plan not specify a timeline 
to begin taking meaningful action on cleanup or establishing a 
national health standard for PFAS in drinking water. Working 
with my colleague, Congressman Fitzpatrick, I've been pushing 
the EPA to commit to a specific timeline for regulating these 
dangerous chemicals.
    Finally, and perhaps most importantly, we need to take care 
of those veterans and families that have already been exposed 
to PFAS chemicals, helping them get the healthcare and 
resources that they certainly deserve. Last Congress, I 
introduced the VET PFAS Act which would provide healthcare and 
disability benefits to any servicemember with health conditions 
caused by PFAS chemicals as already identified by past health 
studies, and I plan on reintroducing this bill soon.
    I'm also pleased that in 2017, Congress passed legislation, 
that I supported, to conduct a new first-of-its-kind health 
study on PFAS chemicals, which will give the public a much 
greater understanding of the health risks associated with PFAS 
exposure. This ongoing study will help make the case that we 
need to do more to ensure that all people exposed to PFAS 
chemicals get the healthcare and resources they need.
    In this Congress, I worked with Congressman Fitzpatrick to 
establish this bipartisan PFAS task force, where Republicans 
and Democrats--yes, Republicans and Democrats--are working 
together on an aggressive, urgent action plan on PFAS. This 
task force now has more than 30 members on both sides of the 
aisle from all over the country.
    The dangers and prevalence of PFAS cannot be understated. 
While some argue that the science has not evolved enough on 
this issue or that the problem is too costly to clean up, I 
simply do not accept those arguments. Inaction will not make 
this public health crisis go away. Instead, it will only 
continue to compound the scale and the cost of the cleanup in 
the future.
    In closing, the administration and Congress must work 
together to fully address PFAS contamination and ensure that 
Americans exposed to these chemicals, including our veterans 
and families and people who live near these sites, have the 
resources they need. Our constituents deserve nothing less.
    Thank you, Mr. Chairman. I yield back.

    [Prepared statement of Mr. Kildee is available at: https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109020. 
]

    Mr. Rouda. Thank you, Representative Kildee.
    Representative Fitzpatrick.

STATEMENT OF THE HON. BRIAN K. FITZPATRICK, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you to the 
ranking member and to the subcommittee for your time this 
morning. My name is Brian Fitzpatrick, representing 
Pennsylvania's First congressional District.
    For several years now, I've worked to address contamination 
in our drinking water by toxic PFAS chemicals because I 
believe, as does my friend and colleague, Dan Kildee, that 
these chemicals represent one of the most widespread public 
health crises we as a Nation currently face.
    I want to thank the committee once again for holding this 
hearing and exploring actions that can be taken to protect our 
Nation's drinking water supply from these toxic chemicals. And 
I also want to thank the committee for inviting us here today 
to explore the negative effects that PFAS chemicals have on the 
people across many districts across this country.
    Mr. Chairman, nationally, 1.3 percent of our drinking water 
contains more than the EPA's current lifetime health advisory 
of 70 parts per trillion combined PFOA and PFOS. However, 
toxicological profiles of these chemicals released by the 
Agency for Toxic Substances and Disease Registry suggests that 
there are harmful levels up to 10 times lower than this 
lifetime health advisory level, which would mean that tens of 
millions of more Americans than we previously thought are 
drinking water with harmful levels of these chemicals.
    In 2017, I introduced legislation that was passed into law 
as an amendment to the National Defense Authorization Act, 
which required the Department of Defense to carry out a 
nationwide five-year human health effects study of these 
chemicals. While that study remains underway, there currently 
exists a broad enough body of research to justify regulating 
these chemicals as hazardous substances.
    From exposure data collected internally by major PFAS 
manufacturers 3M and DuPont, to the massive eight-year study 
involving over 30,000 participants in the Ohio River Valley, 
human exposure to PFAS has been linked to the following 
negative effects: negative effects on developing baby in its 
mother's womb, and children, including possible changes in 
growth, learning, and behavior; decreased fertility and 
interference with the body's natural hormones; increased 
cholesterol levels; ulcerative colitis; thyroid disease; 
testicular cancer; kidney cancer; and pregnancy-induced 
hypertension. There is more than enough research to know that 
we--to know that these chemicals are harmful at far lower 
levels than the EPA is currently suggesting.
    Some of the highest concentrations of PFAS in drinking 
water have been found in the district both that myself and 
Representative Kildee represent. This water contamination is 
primarily associated with decades long use of aqueous film-
forming foam, or AFFF, firefighting foams, on or around 
military installations across the country. AFFF firefighting 
foams are designed to suppress certain classes of fires. 
Unfortunately, the chemicals that make AFFF so effective at 
extinguishing fires are also toxic PFAS chemicals that are 
extremely persistent both in the environment and within the 
human body.
    A perfect example of how my constituents were impacted by 
this issue is West Rockhill Township. In 1986, a team of 
firefighters from the former Naval Air Station Willow Grove and 
the Naval Air Development Center Warminster used the AFFF spray 
trucks to assist fighting a massive tire fire. The tire fire 
burned for 21 hours before it was finally brought under 
control.
    However, Mr. Chairman, over 30 years later, the water 
supply for many households in this vicinity tests at some of 
highest levels of PFOA and PFOS in the entire Nation. The 
Pennsylvania Department of Environmental Protection first 
started sending notices to affected households in 2016. That 
means that for over 30 years, my constituents were drinking 
water and bathing their children in water poisoned by these 
chemicals with no idea of the harm that they were being exposed 
to, through no fault of their own.
    Regulating PFAS effectively and responsibly will not be 
easy. It is essential that we implement the regulatory steps 
necessary to eliminate any health risk associated with these 
chemicals in our drinking water. That is a priority.
    However, there is a very real risk associated with 
overregulating chemicals. Setting MCLs, maximum contaminant 
levels, through the Safe Drinking Water Act, lower than the 
necessary to ensure safety of our drinking water, would expose 
thousands of municipal water authorities to cost-prohibitive 
compliance requirements that would yield no benefit to the 
communities they serve.
    These compliance costs, which could total tens of billions 
of dollars, would be covered by loans that would ultimately end 
up getting paid off through increased rates charged to their 
customers, many of whom were never exposed to any health risks 
from PFAS.
    It is my firm belief that the framework we have in place to 
regulate these chemicals can work, if implemented the right 
way. And it is our constitutional duty as Members of Congress 
to commit to the oversight necessary to ensure that it does. 
That is the primary intent of the congressional PFAS Task 
Force, which I organized with my friend and colleague, Dan 
Kildee of Michigan.
    The EPA must designate PFOA and PFOS as hazardous 
substances under the SuperFund Act, and moreover, they must 
establish MCLs under the Safe Drinking Water Act. With these 
two regulatory actions, our constituents will be given the 
protection they need after so many years of inaction.
    I want to again thank the committee for their time and 
consideration, and we look forward to answering any questions 
the committee has.
    I yield back.

    [Prepared statement of Mr. Fitzpatrick is available 
at:https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109020 ]

    Mr. Rouda. Thank you, Representatives Fitzpatrick and 
Kildee. Really appreciate you taking the time to come here, 
and, more importantly, working in a bipartisan fashion to 
address this very important issue. At this time, we'd like to 
invite you to join us on the dais.
    And if the next panel of witnesses will come forward to the 
witness table.
    Today we have the honorable Dave Ross, assistant 
administrator from the EPA's Office of Water; and Maureen 
Sullivan, the Deputy Assistant Secretary of Defense for 
Environment.
    Mr. Ross has been working on water issues for both state 
government and the private sector for more than 20 years. Ms. 
Sullivan has over 20 years of experience working on 
environmental issues for the Department of Defense.
    If the witnesses would please rise, I will begin by 
swearing you in.
    Do youswear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Rouda. Let the record show--please be seated. Let the 
record show that the witnesses answered in the affirmative.
    The microphones are sensitive, so please speak directly 
into them. Without objection, your witness statements will be a 
part of the record.
    And with that, Mr. Ross, you are now recognized to give an 
oral presentation of your testimony.

STATEMENT OF DAVE ROSS, ASSISTANT ADMINISTRATOR FOR THE OFFICE 
OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Ross. Good morning, Chairman Rouda, Ranking Member 
Comer, and members of the subcommittee. I am Dave Ross, the 
assistant administrator for EPA's Office of Water. Thank you 
for the opportunity to testify today. More importantly, thank 
you for your interest in PFAS and what we can collectively do 
to address the growing public health concern associated with 
the release of these chemicals into the environment.
    Since my first day on the job, I have been advised by our 
dedicated career professionals and scientists on all aspects of 
the emerging PFAS problem, from understanding the potential 
adverse health effects to the fate and transport in the 
environment, to what we know and don't know about the 
identification, treatment, and monitoring of these substances. 
EPA scientists and technical staff have been amazing and 
Administrator Wheeler and I greatly appreciate their expertise 
and counsel.
    As we've heard already today, PFAS are a class of synthetic 
chemicals that have been widely used around the globe since the 
1940's because of their stain-resistant, waterproof, and 
nonstick properties. We use them when we floss our teeth, we 
use them when we hike in the rain, and we use them to protect 
public health and safety. They are very effective, for example, 
in fighting fires.
    Despite their everyday use, the body of science necessary 
to fully understand and regulate these chemicals is not yet as 
robust as it needs to be. Recognizing that, EPA is using and 
developing cutting-edge research and moving forward with 
regulatory mechanisms designed to protect human health and the 
environment.
    EPA's commitments on these fronts are outlined in the 
agency's PFAS Action Plan, which was released on February 14. 
The action plan was authored by a crew of professionals, and 
the recommended actions are a product of their expertise and 
counsel.
    The action plan was also informed by extensive stakeholder 
engagement that the agency formally initiated last year at our 
national leadership summit. EPA held listening sessions in 
multiple communities across the country and reviewed 
approximately 120,000 written comments.
    Despite what is commonly reported in the press, the views 
on how to address PFAS are diverse and sometimes at odds. The 
action plan commits EPA to take important steps that will 
improve how we research, detect, monitor, and address PFAS 
chemicals. Today, I would like to highlight five of the most 
important areas of the action plan, but I encourage you all to 
read the plan in its entirety.
    So first, EPA is committed to following the MCL rulemaking 
process for PFOA and PFOS as established by the Safe Drinking 
Water Act. That process is designed to ensure public 
participation, transparency, and the use of the best available 
science and other technical information.
    The agency has committed to making a proposed regulatory 
determination for PFOA and PFOS, which is the next step in the 
regulatory process, by the end of this year. EPA will also 
evaluate a broader range of PFAS chemicals and whether or not 
they should be regulated under the Safe Drinking Water Act.
    Second, EPA will continue our enforcement actions and will 
clarify our cleanup strategies. EPA has initiated the 
regulatory development process for designating PFOA and PFOS as 
hazardous substances under CERCLA. EPA will also issue interim 
groundwater cleanup recommendations for sites contaminated with 
PFOA and PFOS in the very near future.
    Third, EPA will expand its focus on monitoring and 
understanding PFAS in the environment. For example, the agency 
will propose to include PFAS in the next round of drinking 
water monitoring under the unregulated contaminant monitoring 
program. This action will improve EPA's understanding of the 
frequency and concentration of PFAS occurrence in drinking 
water by using newer methods that will detect more PFAS 
chemicals at lower levels.
    Fourth, EPA is expanding its research efforts and the 
scientific foundation for addressing PFAS by developing new 
analytical methods and toxicity assessments. Our goal is to 
close the gap on the science as quickly as possible, especially 
as it relates to emerging risks like GenX. We're also working 
to develop new technologies and treatment options to remove 
PFAS from drinking water.
    Finally, we'll be working across the agency and the Federal 
Government to develop a PFAS risk-communication toolbox that 
includes materials that states, tribes, and local partners can 
use to effectively communicate with the public. Additionally, 
the agency remains steadfast in our commitment to support 
states, tribes, and local communities to address PFAS 
contamination where and when it has been identified.
    Again, thank you for your opportunity to testify today. I 
can assure you that the emerging PFAS exposure concern is a top 
priority for the agency, and we share the subcommittee's 
concern for communities across the United States that continue 
to deal with these substances in the environment. I look 
forward to answering any questions that you may have.

    [Prepared statement of Mr. Ross is available at: https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109020. 
]

    Mr. Rouda. Thank you, Mr. Ross.
    Without objection, the gentleman from California, 
Congressman Ro Khanna, member of the full committee, shall be 
permitted to join the subcommittee on the dais and recognized 
for questioning of the witnesses.
    With that, I will yield to Ms. Sullivan.

STATEMENT OF MAUREEN SULLIVAN, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR ENVIRONMENT, OFFICE OF THE ASSISTANT SECRETARY OF 
DEFENSE FOR SUSTAINMENT, U.S. DEPARTMENT OF DEFENSE 
    Ms. Sullivan. Chairman Rouda, Ranking Member Comer, and 
distinguished members of the subcommittee, I am Maureen 
Sullivan, the Deputy Assistant Secretary of Defense for 
Environment. My portfolio includes policy and oversight of 
DOD's programs to comply with--just checking--sorry, thank 
you--to comply with environmental laws such as the Safe 
Drinking Water Act and the Comprehensive Environmental Response 
Compensation and Liability Act, CERCLA.
    I want to thank Congress for your strong support for the 
Department of Defense, our national security priorities, and 
for the funding we need to protect our Nation. Ensuring the 
health and safety of our servicemembers, the families living on 
our installations, and the surrounding communities is one of 
our top priorities. I also want to thank the subcommittee for 
the opportunity to discuss PFAS. We believe DOD has been 
leading the way to address these substances.
    One commercial product that contains PFOS and PFOA is 
aqueous film-forming foam, or AFFF. This highly effective 
firefighting foam has been used by DOD, airports, fire 
departments, and the oil and gas industry. However, it only 
accounts for approximately three to six percent of PFOS 
production in the year 2000. And DOD is just one of the many 
users.
    Over the last two-plus years, DOD has committed substantial 
resources and taken action to respond to concerns with PFOS and 
PFOA. When the EPA issued the lifetime health advisories, or 
LHAs, for PFOS and PFOA in May 2016, DOD acted quickly to 
voluntarily test our 524 drinking water systems that serve 
approximately 2 million people on our installations worldwide. 
Twenty-four of these systems tested above EPA's LHA level, and 
DOD has followed EPA recommendations to include providing 
bottled water or additional treatment.
    CERCLA provides a consistent approach across the Nation for 
cleanup. The Defense Environmental Restoration Program statute 
provides authorities to DOD to perform and fund actions and 
requires that they be carried out in accordance with CERCLA. 
The first step is to identify known or suspected releases. DOD 
has identified 401 active and base realignment enclosure 
installations with at least one area where there's a known or 
suspected release of PFOS or PFOA.
    The military departments then determine if there was 
exposure through drinking water. If so, the priority was to 
cutoff--has been to cutoff--human exposure where drinking water 
exceeds EPA's lifetime health advisory. Now that exposure 
pathway is broken, the military departments are prioritizing 
sites for further actions using the long-standing CERCLA risk-
based process ``worst first.''
    These known and suspected PFOS and PFOA release areas are 
in various stages of assessment, investigation, and cleanup. As 
DOD moves through the CERCLA process, we will work in 
collaboration with the regulatory agencies and communities and 
share information in an open and transparent manner.
    To prevent further releases to groundwater, DOD issued a 
policy in January 2016 requiring the military departments to 
prevent uncontrolled land-based AFFF releases during 
maintenance, testing, and training. The policy also required 
the military departments to remove and properly dispose of 
supplies of AFFF containing PFOS.
    Currently, no fluorine-free version of AFFF meets the 
military's stringent performance requirements. We have 
solicited research projects to identify and test the 
performance of fluorine-free AFFF. These efforts support DOD's 
commitments to finding an AFFF alternative that meets critical 
mission requirements, while protecting human health and the 
environment, and will represent $10 million in research and 
development funding.
    In summary, DOD is taking actions to reduce the risks from 
PFOS and PFOA. Our efforts reinforce DOD's commitments to meet 
mission-critical requirements, while protecting human health 
and the environment. The Department recognized that this is a 
national problem involving a wide array of industries, 
commercial applications, as well as many Federal and state 
agencies. Therefore, it needs a nationwide solution.
    We look forward to working with you as you move forward. 
Thank you.

    [Prepared statement of Ms. Sullivan is available at: 
https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109020.]

    Mr. Rouda. Thank you, Ms. Sullivan and Mr. Ross.
    At this time, I'm going to defer my five minutes of 
questioning and now recognize the distinguished member from 
California, Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman, and thank you to our 
guests.
    This is a personal issue for me, as well as for my 
district. I come from a district rooted in defense and service 
where we have a large Active Duty military and veteran 
population. But I was also born on an air force base which has 
known contaminants of PFAS, and I grew up right next to one. 
And, in fact, my dad was a firefighter with the Air Force who 
used such chemicals for an extended period of time. So the 
health effects are unknown as to how they're going to impact me 
and my family. And for my constituents, these are people who 
fight and have fought for this country and who have been 
exposed to these chemicals, expect the EPA and the DOD to take 
responsibility and work to regulate the harmful substances.
    So I'm very concerned about the EPA's delayed response to 
the PFAS health crisis. When Scott Pruitt served as the 
administrator of the EPA he called the issue of PFAS chemicals 
contaminating drinking water supplies a, quote, national 
emergency. But we sit here today a year after these comments 
were made by Mr. Pruitt, and the EPA has still not regulated 
these chemicals.
    So, Mr. Ross, do you believe that the PFAS health crisis is 
a national emergency?
    Mr. Ross. I do. Sorry about that. We do believe it is a 
major national issue for EPA and our Federal partners to 
address. This is an emerging issue, and we have been working it 
aggressively. Historically over the agency has--has used as 
TSCA authorities to take a couple hundred chemicals and 
regulate them before getting into the market. We've worked with 
the regulated industry to pull PFOA and PFOS voluntarily off 
the market. We've developed health advisories, and we're 
developing and working on our toxicity assessments for new 
chemicals.
    And so, yes, we agree it's a--it's a major issue, and we're 
focused [on it] as one of our highest priorities of the agency.
    Ms. Hill. So last month, the EPA announced its action plan, 
which I appreciate, but the plan didn't call for action. The 
EPA delayed the decision on setting the maximum contaminant 
levels for PFOA and PFOS until the end of this year. So the 
long awaited action plan disappointed many, including many in 
the audience here today.
    So, Mr. Ross, why did the EPA choose to delay another 10 
months to make a decision regarding these chemicals?
    Mr. Ross. The EPA did not choose to delay additional 10 
months. What we heard from stakeholders and from a wide variety 
of people in the country that this was a multifaceted, 
complicated problem. It's not just simply about drinking water. 
It's about market entry. It's about what we know and don't know 
about the science. It's about what we can do under TSCA. It's 
what we can do about cleanup standards. It's CERCLA. It's a 
multifaceted problem that needs a holistic solution.
    What we heard is we needed to go listen to the communities. 
And so the agency in the past has been criticized for not 
engaging with states and local communities, and not listening, 
and writing in the dark. This agency, this administration, 
committed to going, engaging with the communities, listening to 
what the people need from EPA. And the action plan, if you take 
a look at table I, the executive summary, specifically lists 
about 20 to 25 actions that we heard stakeholders wanted the 
agency to address. In the first column on the left it says what 
we heard in the stakeholder engagement. And as you go to the 
columns to the right, it's what are we going to do to address 
those concerns.
    So we took the time to listen, to engage, and so the action 
plan has very specific commitments across about 20 to 25 
issues. So we are taking action.
    Ms. Hill. It's been--this is an issue that's personal for 
me on a number of levels in terms of how influence happens in 
politics. It's an issue that I ran on. And it's been reported 
by Politico that Dave Dunlap, former Koch Industries official 
who now works in the EPA's Office of Research and Development, 
participated in, quote, at least nine PFAS meetings in Mr. 
Dunlap's first six weeks on the job. This raises serious 
questions regarding Mr. Dunlap's potential conflicts of 
interest and any influence he may have had to delay regulations 
of these chemicals.
    So, Mr. Ross, were any lobbyists or industry 
representatives involved in the decision to delay regulation of 
these chemicals?
    Mr. Ross. So when I was sworn in last January and took over 
as the assistant administrator for the Office of Water, I came 
up to speed very quickly with our career staff--Dr. Peter 
Grevatt, Dr. Jennifer McLain--on the scope of the PFAS issue. 
At the time, we had a task force running that was being staffed 
by ORD, our scientists, and other members--career staff, and it 
was a research-oriented task force. And we decided to transfer 
leadership of the effort to a regulatory program, the Office of 
Water, to take the lead.
    So at that time, under the leadership of Administrator 
Pruitt and the continued leadership of Administrator Wheeler, I 
have been running point for the political team at EPA. I have 
not taken a meeting with the regulated entities that you are 
talking about.
    Mr. Dunlap, just like every other political appointee in 
their program offices, has participated, together with our 
career, political--or our career deputies--in this overall 
holistic effort. So I have been running point for the past 
year.
    Ms. Hill. Do you have any idea, based on his previous work 
history, why Mr. Dunlap was not recused--or did not recuse 
himself from working on this plan?
    Mr. Rouda. Congresswoman Hill, your five minutes are up, 
but please answer the question.
    Mr. Ross. Thank you, Chairman.
    I do not know the scope of his recusals. I know mine. And 
so--I do know that all political appointees come in and work 
with our ethics counsel very carefully. We fill out recusal 
statements and we abide by them. And every time we have a 
meeting or an external engagement, we try to--try to run 
clearances. I don't know the scope of his personal recusals.
    Ms. Hill. Thank you, Mr. Ross.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you.
    And now I yield to Ranking Member Comer.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. Ross, we've heard a lot of discussion in the news about 
the need for maximum containment level under the Safe Drinking 
Water Act. Can you please elaborate a little more on the steps 
and the process to set a maximum containment level, what is 
required, and what does the agency need to do?
    Mr. Ross. Yes, I'd be happy to. And that's actually the 
program--Safe Drinking Water Act program in the Office of 
Water. So Congress gave us very, very specific guidance as to 
how to establish maximum contaminant levels, nationwide 
drinking water regulations under the Safe Drinking Water Act. 
It's a robust process where we evaluate the best available 
science. We make a determination about the health hazards, the 
occurrence data, and whether or not, through national 
regulation, we can do something about the issue. And then 
we're--then we go through a very robust public engagement, go 
through peer review, public science, work with our drinking 
water advisory counsel, and engage through multiple steps with 
the public.
    It's very prescriptive. And so Congress gave us the 
direction on how to establish an MCL, and we are beginning the 
process, as I mentioned in our opening statement, to follow the 
guidelines as established by Congress under the Safe Drinking 
Water Act.
    Mr. Comer. Right. You mentioned science. What role does 
science play in this process, and what type of information does 
EPA consider as part of this process?
    Mr. Ross. I think science leads this process. Congress was 
very specific in the Safe Drinking Water Act about the specific 
science that we need to gather, very specific requirements 
about peer-review science and using our drinking water advisory 
committee. So we will--we will start with our health advisory 
that the Obama Administration developed at the end of it--at 
the end of its, you know, mid 2016.
    We also gather other available science. The states are 
working on their standards. ATSDR, as we've heard today, has 
come out with minimum risk levels that are different than--than 
the health advisories, and I'm happy to answer questions about 
that. But science will--science plays the lead role. And we 
have amazing toxicologists and scientists at EPA, and we rely 
on them heavily. I am not a scientist, and so I need to rely on 
them to tell me what I need to do to establish a standard.
    Mr. Comer. OK. I understand some states have been setting 
their own levels. Are there any differences in the process a 
state must go through and the EPA must go through to set 
enforceable levels of substances such as the PFOA and PFOS?
    Mr. Ross. Yes, there are. So the Federal--the Federal 
Government, it's sort of our--our federalism principles 
embodied in many of our clean--in many of our environmental 
statutes. EPA has the lead in establishing minimum requirements 
on the Safe Drinking Water Act. We have 49 states and one tribe 
that serve as the primary authority for implementing the 
program. Only the state of Wyoming does not have a primary 
delegation.
    So the Federal Government has a role, but the states--and 
that's one of the strengths of our system, is that if the 
states implementing their individual state authorities need to 
move quicker or have different programs, they have the ability 
to do that, and we actively encourage and work with them to do 
that. So there's a--there's a cooperative federalism principle 
embodied in the Safe Drinking Water Act.
    Mr. Comer. My last question here. Once the EPA implements a 
nationwide maximum containment level, what would the impacts be 
for states and public water systems? And what kinds of actions 
might they undertake to prepare to comply with the new levels?
    Mr. Ross. Well, so traditionally the way an MCL is looked 
at is, is you establish sampling requirements. And so in this 
particular instance, you would establish, you know, 
traditionally about quarterly sampling requirements. Each 
individual community water system--and there are about 50-to 
60,000 of them that we'd be looking at--would require a sample 
on a quarterly basis. You round about 300 to 500 on a sampling 
protocol on a quarterly basis. You rough-math that out. Over 
the course of a year, you're looking at 60 to 100 million in 
compliance costs. That's not--that's just at the monitoring 
level.
    Once--if you have a hit above our MCL, then we take a look 
at imposing technology-based requirements, protect the public 
health, to hit that standard. And so it's a--it's a monitoring, 
reporting, and eventually a technology control to protect human 
health and the environment.
    Mr. Comer. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Rouda. Thank you.
    Congresswoman Tlaib, you have five minutes for questions.
    Ms. Tlaib. Thank you, Chairman.
    I want to first thank the leadership of Congressman Dan 
Kildee, as well as Fitzpatrick, in working on such a critical 
issue to our Nation.
    According to reports, Mr. Chairman, big manufacturers 
PFAS--that produce PFAS chemicals, including 3M and DuPont, 
knew about the toxicity of PFAS chemicals for decades and did 
nothing. I would like to bring our attention to a story--it's 
very important to put a human face to such a huge issue. And 
Emily Donovan, who is unfortunately not able to be with us 
today--but I would like to submit her statement for the record, 
Mr. Chairman--she lives in Wilmington, North Carolina, not far 
from the chemical giant--I think it's called Chemours, if I'm--
which spun off of DuPont in 2015--and has discharged 
dangerously high levels of toxic PFAS chemicals into Cape Fear 
River. Her entire community has been affected.
    Ms. Donovan's statement tells a very heartbreaking story, 
and I want to highlight one of them, that of Tom Kennedy, a 
long-time resident of Wilmington. Ms. Donovan states, quote, he 
was diagnosed in December 2016 with stage II-B nongenetic 
breast cancer. By 2017 of August he learned that cancer went to 
his brain and bones and to stage IV terminal cancer. He does 
chemotherapy every three weeks to stop the growth of his 
cancer.
    Tom is in his early forties. He has a wife and two 
daughters. He is the primary source of income for his family, 
and the cancer is robbing the Kennedy family of the best years 
of their lives. Tom's eldest daughter is a teenager, and let's 
keep in mind how many children are unwittingly exposed right 
now to these chemicals throughout their lives and how many 
children are now seeing their young parents suffer. And let's 
also keep in mind that research suggests that even lower levels 
of exposure for children and babies are toxic.
    So, Mr. Ross, this subcommittee has learned that these big 
corporations like 3M and DuPont knew about the health risks 
associated with PFAS chemicals for decades, but did nothing to 
stop the exposure. What has the EPA done to penalize, hold them 
accountable, for poisoning the water supplies of Americans, and 
what actions in the future does EPA plan to take?
    Mr. Ross. So in the past, we've used, particularly for some 
Chemours facilities in West Virginia and other places on the 
East Coast, we've used both TSCA enforcement orders and Safe 
Drinking Water Act imminent and substantial endangerment 
orders. And so if you take a look at the action plan, one of 
the concerns I had is if you just have a regulatory mechanism 
to address the issue, you're talking about, you know, 
Administrative Procedure Act, Safe Drinking Water Act.
    And so what the action plan is focused on are short-term 
solutions and our long-term strategies. The short-term 
solutions focus on taking action where we have the most 
critical issues, so working with the states, working with the 
local communities, identify and providing the technical 
assistance they need to identify and monitor, working with the 
states on cleanup. If we have an imminent and substantial 
endangerment, we have and we will use our enforcement 
authorities under the Safe Drinking Water Act.
    And so the short-term focus is helping the communities that 
are affected now, while we grapple with the longer term 
strategy on the regulatory side.
    Ms. Tlaib. Yes. And just because we're short on time, and 
it's very critical that I ask this question, I represent a 
very--a community that has been polluted--you know, 
corporations have been polluting the air there, impacting the 
water source for decades now. And one of the things that I 
learned through the state government and being in the 
legislature is that sometimes there's undue influence on 
various bureaucrats or various officials. And one of the things 
that kind of came out of your opening testimony, or answering 
some of the questions, were--you said, I've heard from so-
called stakeholders.
    Who are these stakeholders? And have you ever received any 
communication or e-mail or a call or text from anyone in the 
administration about this issue indirectly or directly 
requesting you not to do or not to act?
    Mr. Ross. Well, so the stakeholder engagement, we sent our 
teams, including the director of the office for the drinking 
water program office as part of the stakeholder engagement. We 
went to about six or seven communities, held listening 
sessions. We've worked with the state of Michigan, and 
Michigan's doing some really valuable work in this area. Our 
Region 5 office spends a lot of time----
    Ms. Tlaib. Beyond government, what stakeholders?
    Mr. Ross. Well, beyond government, so I--I have----
    Ms. Tlaib. Because you said stakeholders and you said 
you're part of a political team. I'm trying to understand what 
that all means.
    Mr. Ross. Stakeholders is all encompassing. Our local 
communities, our state governments are affected. I've met 
personally with some of the affected activists, including from 
Michigan. And also our--our--our Federal partners. And so we go 
through interagency review, when, for example, the action plan 
was submitted to the Office of Management and Budget. We have 
interagency review teams that take a look at that. And so 
stakeholders is all of the above.
    If you're asking if I have been lobbied personally by my 
members of the regulated community, to my knowledge, I have not 
taken a meeting on this. I do know my career staff learns from 
everybody. And so if they want to learn about--from the 
chemical manufacturers, they talk to them. They talk to the 
affected communities. Because our job is to know as much as we 
possibly can about this issue so we can guide our decision-
making.
    Mr. Rouda. Thank you.
    Mr. Ross, the second part of that question was also any 
information or attempted e-mails or texts from the 
administration regarding regulations in this area. Would you 
like to supplement your answer to Member Tlaib on that issue?
    Mr. Ross. Thanks, Chairman. So there's regular 
communication between all branches of the Federal Government. 
One of our jobs is to make sure the Federal Government's 
coordinated. And so, you know, we have regular communication as 
part of the interagency review process. I'm sure our career 
teams, as they're submitting information and answering 
questions, there's plenty of e-mail correspondence and 
communication. That's the regular course of government 
business. So the answer would be yes, there is communication.
    Mr. Rouda. And any communication directly asking you not to 
promulgate regulations in this area?
    Mr. Ross. I am not aware of it, but we can double-check 
that. As part of the interagency review process, people have 
diverse viewpoints. That's part of the--that's part of the 
system. So to the extent it's there, you know, again, I--I 
haven't seen anything directly, but at the same time, that's--
everybody has diverse viewpoints on how to actually grapple 
with these issues. That's, you know, this country is founded on 
diversity of thought, and we want that diversity as we think 
about the right course of action going forward.
    Mr. Rouda. Thank you.
    At this time, I'd like to recognize Member Armstrong for 
five minutes of questioning.
    Mr. Armstrong. Thank you.
    I suppose I should start, we have two Air Force bases in 
North Dakota. So, Ms. Sullivan, do you have any update on PFOA 
or PFOS contamination on any DOD facilities in North Dakota?
    Ms. Sullivan. I tend to--honestly, sir, I'm a policy 
person, so I look at overall. I defer to the military 
departments onsite specific, but we can get you----
    Mr. Armstrong. Yes, I fully--so thank you.
    Ms. Sullivan [continuing]. detailed background on North 
Dakota.
    Mr. Armstrong. So when DOD learns of a water contamination 
issue [it is] above the lifetime ban, right?
    Ms. Sullivan. Correct.
    Mr. Armstrong. What are the immediate steps that go into 
place to protect the drinking water on the base?
    Ms. Sullivan. Oh, on the base. We immediately, when--as 
soon as EPA issued the lifetime health advisory, we directed 
everywhere where we are the purveyor of drinking water 
worldwide--there are 524 systems we operate--to immediately 
test using EPA's test method, and if there was above the 
lifetime health advisory, to immediately provide alternative 
drinking water. So all of that occurred in the--over the summer 
of 2016.
    For those installations where we buy water from the local 
community, we asked the military installations to work with the 
local purveyor to see if they would voluntarily adopt EPA's 
lifetime health advisory in the water that we're buying from 
them for our installation. So by the end of the summer, that 
summer of 2016, no one on a military base was drinking water 
above the lifetime health advisory.
    Mr. Armstrong. OK. And so when the EPA issued their action 
plan last month, I mean, it's pursuing a hazardous-substance 
designation. Do you think there's any steps the EPA can do, can 
help you in any current cleanup efforts or future cleanup 
efforts? I mean, we're talking about interagency coordination.
    Ms. Sullivan. Right.
    Mr. Armstrong. This is a pretty big one.
    Ms. Sullivan. Yes. And we work closely with EPA. My 
additional career staff works closely with Dave's career staff. 
Actually, it's very interesting, because PFOS and PFOA are 
considered what is called a hazardous substance--I'm sorry--a 
pollutant or a contaminant, under the Comprehensive 
Environmental Response--CERCLA, under CERCLA, we are already 
in. So we have already begun the whole process. So designating 
as a hazardous substance under CERCLA is actually not going to 
make a difference in terms of our going out and investigating 
sites and--and laying out the cleanup path. It will actually do 
more to ensure that all of the sites across the Nation are also 
looking to the degree that the Department of Defense is already 
looking.
    Mr. Armstrong. And I guess in my former life, before I got 
involved in this line of work, I was a volunteer fireman. So I 
think when we talk about firefighting, people think of actually 
fighting fires, but significantly what you do as a fireman is 
training. And so when--when the military conducts training 
exercises, does it use AFFF products, or does it use--I mean 
containing PF-----
    Ms. Sullivan. So in January 2016, which was before EPA 
issued their Lifetime Health Advisory, we actually instructed 
people to stop using it in training and testing. They use, for 
the most part, water, for that. And when they actually have to 
use it to fight a fire, that they contain it to make sure that 
it doesn't get into the groundwater. So we--we do not--we're 
not requiring the use of it as part of testing and training and 
maintenance in the day-to-day activities.
    Mr. Armstrong. I guess then----
    Ms. Sullivan. Except for shipboard.
    Mr. Armstrong. And then I guess my follow-up question to 
that, have you done any testing since, and has the Department 
seen any reduction in these chemicals in either your water 
supplies or the surrounding water supplies since you made that 
training? Because I got to assume training was using the vast 
majority of these chemicals as opposed to actually 
firefighting. So----
    Ms. Sullivan. Correct.
    Mr. Armstrong [continuing]. by switching, have you seen a 
reduction?
    Ms. Sullivan. I have not tracked that information, 
honestly, sir, because the groundwater situation, most of it is 
so long-term that--that we're--this is an evolving issue. Right 
now, we're trying to determine the extent of the presence in 
the groundwater around our bases, how far it is, where it's 
flowing, so we can design the right system to contain it, now 
that we've cutoff human exposure through drinking water.
    Mr. Armstrong. Thank you. And then I think just one 
question, and I think it's for actually both of you. You're 
working with different agencies, and obviously bases exist all 
over. How are we working with the Department of Agriculture to 
make sure that we're not mitigating into surrounding farmland 
or cropland?
    Mr. Ross. Maureen, I can take that.
    In fact, the Administrator--I've actually talked to USDA, 
because there's a--there's a dairy situation out in New Mexico, 
and so I talked to USDA within the last couple of weeks, 
getting more information about that. The Administrator, just 
last week, issued a memo directing the Office of Research and 
Development as part of our--as part of our action plan. We have 
a very robust research component to specifically take a look at 
the cross section between groundwater contamination and 
agriculture use. And so we'll be setting up meetings with USDA, 
FDA, and our--and our research staff to work that very issue 
the Administrator issued in that memo last week.
    Ms. Sullivan. And I would add to that, that we believe that 
this is a nationwide problem that does need a whole-of-
government solution. So we would encourage USDA and the Food 
and Drug Administration to get engaged.
    Mr. Armstrong. Thank you, both.
    Mr. Rouda. Thank you.
    Next, Congresswoman Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    And thank you both for coming to testify with us today--or 
to share your knowledge with the subcommittee.
    I--like many of my colleagues here are very concerned about 
the use of PFAS chemicals which, as you stated, are in 
everything from firefighting foams to commercial household 
products like nonstick pans and water-repellant clothing.
    Serious health effects have been associated with these 
chemicals. In fact, the Center for Disease Control issued a 
report recently on this topic. I would like to enter into the 
record a recent toxicology profile of PFAS chemicals completed 
by the CDC's agency for toxic substances and disease registry.
    Ms. Ocasio-Cortez. Mr. Ross and Ms. Sullivan, are you both 
familiar with this report?
    Ms. Sullivan. Yes, I am.
    Mr. Ross. Yes, I am.
    Ms. Ocasio-Cortez. And is it true that this agency report 
acknowledges that epidemiological studies have provided 
evidence that there is a link between PFAS chemicals and 
thyroid disease?
    Ms. Sullivan.
    Ms. Sullivan. I'm not familiar with the details. I just 
know the report exists, ma'am.
    Ms. Ocasio-Cortez. Sure.
    Mr. Ross.
    Mr. Ross. Yes. I am familiar with the end points in that 
study, yes.
    Ms. Ocasio-Cortez. So it does?
    Mr. Ross. Yes.
    Ms. Ocasio-Cortez. Mr. Ross, isn't it also true that this 
report acknowledges that there is a suggestive link between 
PFAS chemicals and, I quote, increased risk of decreased 
fertility?
    Mr. Ross. Yes. I believe that--I don't have the report in 
front of me, but I do believe that that's in that report.
    Ms. Ocasio-Cortez. And is it true that this report also 
found a suggestive link between PFAS chemicals and liver 
damage?
    Mr. Ross. There are liver affiliation end points with the 
use of various PFAS chemicals.
    Just to be clear, though, there are different chemicals 
that have different end points. So, for example, our toxicology 
work that we did last year with GenX and PFBS. One has an end 
point and focused on liver. The other has an end point and 
focused on kidney. So you have to be little bit careful about 
the chemicals that you're talking about.
    Ms. Ocasio-Cortez. Thank you.
    And have you also seen information here with increased risk 
of testicular and kidney cancers with PFOA?
    Mr. Ross. I am not familiar, but that's--off the top of my 
head. But I can get my scientist to answer that question for 
you.
    Ms. Ocasio-Cortez. Thank you. And I'll make sure that this 
report is submitted to the record.
    I think it's important to acknowledge here that people are 
suffering. And some of them are here in Washington with us 
today. Hope Grosse, who grew up in Warminster, Pennsylvania, 
next to the Naval Air Warfare Center, she drank and bathed in 
the local water throughout her life.
    And, Mr. Chairman, I would like to enter Ms. Grosse's 
statement also into the record. Ms. Grosse was diagnosed with 
stage IV cancer at the age of 25 years old. Ms. Grosse's father 
died of cancer at 52 years of age, and her sister suffered from 
ovarian cyst, lupus, fibromyalgia, and abdominal aneurysms. She 
worries that she has unwittingly exposed her own children to 
these toxic chemicals as well.
    Scientists believe that there may be a link between PFAS 
chemicals, exposure, and the kinds of diseases and illnesses 
that Ms. Grosse and her family members have suffered.
    Mr. Ross, do you believe that the EPA should further 
regulate these chemicals?
    Mr. Ross. Yes. And that's what we've stated in our action 
plan. We have a robust plan to regulate these chemicals across 
a wide variety of our programs.
    Ms. Ocasio-Cortez. Thank you.
    And I have one additional question. I know that, since you 
all come from a policy perspective, it's hard to say which 
airport or which naval base may have these chemicals or not.
    I'm very concerned about my own constituents in my own 
district. LaGuardia Airport, which is one of the busiest 
airports in the country, is in my home district.
    So one of my questions, and particularly when it comes to 
the surrounding community, I want to make sure that my 
constituents are safe or, if they have exposure to these 
chemicals, that they would know.
    Is there a place that they can go to? What documents could 
they examine? Is there an agency or an individual that they can 
ask for an assessment or that has already done an assessment 
that they can figure out this information.
    Mr. Ross. Yes. So a couple things. One, my office water 
team is tracking wherever we have a site-specific issue across 
the entire country. So we have a data base that we're building. 
Our regional offices sort of run point on the specifics. New 
York has got a very robust program working carefully up there 
with three or four sites.
    So the New York public health--I don't know the right 
acronyms up there, but their Department of Environmental 
Quality, their public health, are really great resources.
    And so I would always encourage folks to go to local and 
state first because they know their resources and their people 
best. But the Federal Government's also tracking and developing 
data bases.
    Ms. Ocasio-Cortez. OK. Fabulous. Thank you very much.
    Ms. Sullivan, do you have anything to add?
    Ms. Sullivan. I would just say that ATSDR is doing exposure 
assessments in West Hampton and in Orange County, New York. So 
they'll be starting those exposure assessments in those two 
communities in New York shortly.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Chair, I yield my time.
    Mr. Rouda. Thank you.
    Member Khanna.
    Mr. Khanna. Thank you, Mr. Chair. Thank you for allowing me 
to ask questions on the subcommittee. Thank you to the 
witnesses for testifying.
    I want to follow up on Ms. Ocasio-Cortez's excellent line 
of questioning.
    The GAO reported last September that DOD had identified 401 
military sites with known or suspected PFAS.
    Ms. Sullivan, you acknowledge in your testimony that 
there's a growing body of evidence that highly fluorinated 
chemicals are harmful.
    Do you know how many active or closed military 
installations are there today with any known or suspected 
releases?
    Ms. Sullivan. Yes, sir. We have confirmed 401 installations 
within the United States have known or suspected releases, and 
all are in various stages of investigation of the extent of 
those releases and what the remedy would be.
    Mr. Khanna. And did all of these sites test above the EPA's 
health advisory of 70 parts per trillion?
    Ms. Sullivan. No, sir. To divide this between drinking 
water and groundwater. So we submitted a report to Congress in 
2018 that listed all of the locations that--where it was tested 
in the drinking water off the base as a result of our 
contamination and laid out exactly where those systems were 
where the drinking water tested above the lifetime health 
advisory and what actions we've taken with the communities to 
make sure that that drinking water is below--goes below 70. It 
could be everything from providing bottled water to installing 
home treatment systems or hooking up the host to the local 
municipality and installing a system in the local municipality.
    So that was our first priority in--when the lifetime health 
advisory was to cutoff that exposure through the drinking 
water. Now we're doing all the investigation into the 
groundwater.
    Mr. Khanna. But was it the 70 parts per trillion that was 
the standard?
    Ms. Sullivan. Yes. Yes, it was.
    Mr. Khanna. And are you aware of the draft agency for toxic 
substances and disease registry's report suggesting that the 
threshold should actually be 7 to 10 times lower than the EPA's 
advisory?
    Ms. Sullivan. Yes. I'm aware of that report. It is in draft 
right now. We are waiting for ATSDR to issue the final report.
    Mr. Khanna. So do you have a guess on how many military 
sites may have contamination at, let's say, 10 parts per 
trillion as opposed to the 70 that was used?
    Ms. Sullivan. I couldn't tell you, sir.
    Mr. Khanna. It could be a lot more?
    Ms. Sullivan. It could be more.
    Mr. Khanna. Is there any plan to look at more sites under 
the lower standard that many people recommend?
    Ms. Sullivan. Well, generally, when we're investigating 
groundwater, we use a factor below--a 10 times factor below. 
So, right now, we're looking anywhere that it is 40 parts per 
trillion and above in the groundwater to see what the situation 
is. And we're monitoring the drinking water. In those 
locations, we monitor the drinking water for a certain range to 
make sure that we're not getting close to the 70.
    Mr. Khanna. And Ms. Ocasio-Cortez spoke about this 
heartbreaking story.
    Do you know, Ms. Sullivan, how many active servicemembers, 
veterans, or their families, have possibly been exposed to 
these chemicals?
    Ms. Sullivan. I'm sorry, sir. I don't. However, in 
accordance with the National Defense Authorization Act of 2019, 
our health affairs staff is going to be conducting a health 
study in creating an inventory of those servicemembers that 
have been exposed through drinking water or occupational 
exposure and work in coordination with the Veterans 
Administration to share that information. So they're complying 
with that requirement in the National Defense Authorization 
Act.
    Mr. Khanna. So that's the plan? To notify people who have--
--
    Ms. Sullivan. To notify, to create a registry. But they are 
sharing information now. Through our health program, they share 
all the information that we've collected from EPA and for the 
Agency for Toxic Substances and Disease Registry and make it 
available to our medical community.
    Mr. Khanna. I have one final question. I don't know if you 
saw the report by Sharon Lerner in The Intercept that a Dupont 
spinoff company tried to import PFAS waste from the Netherlands 
to destroy it here. Of course, the Netherlands has strict 
regulations for PFAS waste. We do not. Should we be importing 
PFAS from other countries that are trying to get rid of them?
    Ms. Sullivan. I would defer to Dave on that one.
    Mr. Ross. I'm not familiar with the story, so I would have 
to talk to our hazardous waste and our solid waste folks.
    Mr. Khanna. In general, would you support not importing 
PFAS into this country?
    Mr. Ross. Well, as far as market entry, we use our toxics--
or our TSCA program as far as, you know, use in commerce. I'm 
not an expert on our, kind of, waste management systems, so I 
can't answer that question
    Mr. Khanna. Thank you.
    Mr. Rouda. Thank you.
    I will now grant myself five minutes for questioning.
    And, again, I want to thank the witnesses and everybody 
here for coming.
    I would like to ask anybody in the audience that has been 
directly affected by PFAS or their family members or friends to 
please stand up and stay standing for a moment.
    I'd like everyone to look around and recognize that these 
Americans are just a small fraction of Americans across our 
country who have been affected by the toxicity of these 
chemicals by simply drinking water. Let that sink in. Here in 
the United States, by simply drinking water, that you could 
have an impact along the lines that we have discussed here 
today.
    Thank you. Please be seated.
    While we're all here recognizing that we have bipartisan 
support in wanting to address this issue, the question is the 
sense of urgency, the sense of urgency for those who were just 
standing, the sense of urgency for their families, a sense of 
urgency for those who have yet to be impacted by our failure to 
move quickly in addressing this issue.
    Mr. Ross, I appreciate your comments earlier about your 
action plans. But in that statement, your opening statement, 
you used the word ``we will do this, we will do that'' 
repeatedly.
    I do not think ``will'' is what we want to hear. ``When'' 
is what we want to hear. When will we take action to address 
these issues?
    So I ask you, in that detailed plan, do you have specific 
dates, milestones, that the EPA wants to accomplish under the 
15 action items that you talked about with specific timelines 
and milestones?
    Mr. Ross. Yes, we do. And we are taking action. In the 
local communities that are affected, we're working with the 
states to provide point of use, point of entry, treatment 
technology. Treatment technology exists right now for local 
communities to put on. Granulated activated carbon, other 
methods.
    So where there are impacted communities, we're working with 
those communities and working with the states to take action.
    Of our 15 to 20, to get to your question, action, yes, 
there are specific commitments in there. For example, we didn't 
wait to do the action plan. We needed work done on the toxicity 
assessments for GenX, PFBS. We've got another six in line. 
We're working with our toxicologists to do high throughput tox 
work on a group of about 150 chemicals to try to accelerate our 
toxicology knowledge, for the MCL, which I think obviously is 
an interest for you. We are committed to getting the proposed 
regulatory determination out this year, and then we'll work 
through that system that Congress has established for us as 
expeditiously as we can in the----
    Mr. Rouda. Any internal unreleased timelines that you have 
that you would commit to releasing to the public?
    Mr. Ross. No. I don't have an internal deadline. There are 
multiple, multiple public statements. We're also coming out 
with our reg agenda, which, as we're going through the 
rulemaking process in OMB----
    Mr. Rouda. One of the reasons I'm asking this question on 
timeline is that there was indications that the White House 
tried to suppress the release of toxicology profile for PFAS 
chemicals completed by the agency for toxic substances and 
disease registry. Are you aware of that?
    Mr. Ross. I'm aware of the reports, yes.
    Mr. Rouda. Are you aware of the email?
    Mr. Ross. I'm aware of the email, yes. I've read about that 
in the news.
    Mr. Rouda. And so is it a public relations nightmare for 
the White House if this information gets out?
    Mr. Ross. I don't believe so. In fact, Administrator 
Wheeler, one of his No. 1 priorities for the agency is risk 
communication. This agency, and the Federal Government, needs 
to do better on risk communication.
    For example, we've talked about the ATSDR study that you're 
just asking about. And there's confusion in the public, and 
including today, about what those numbers mean versus EPA's 
health advisory. They're different numbers.
    Their scientists have a mission at the ATSDR to establish 
screening levels below which there isn't a health risk 
associated with a community. And then they take those screening 
levels and then go do further investigation to figure out what 
the real risk assessment is in those communities.
    Our drinking water standards are focused on actual 
consumptive use, our most sensitive populations drinking 
contaminated water over their lifetime.
    And so health advisories our are different than the ATSDR 
number. That's a risk communication issue that we need to do 
better collectively for the American public.
    Mr. Rouda. Thank you.
    Ms. Sullivan, I want to also turn to sense of urgency to 
you.
    Is there anything preventing the DOD from cleaning up all 
of these sites and the contaminated soils immediately? Is there 
any law preventing your from taking action?
    Ms. Sullivan. Sir, we are moving out--we've been moving out 
for almost three years very aggressively under CERCLA and under 
our authorities under the Defense Environmental Restoration 
Program. We're actively investigating sites. We've cutoff 
exposure already through drinking water and installing remedies 
across the Nation.
    Mr. Rouda. How much did the DOD request in the 2019 budget 
for cleanup?
    Ms. Sullivan. Approximately $1.3 billion.
    Mr. Rouda. And is that enough to do a complete cleanup of 
all 401 sites?
    Ms. Sullivan. Oh, sir, I estimate that the--and this is a 
very, very rough back-of-the-envelope calculation that the 
cleanup of PFAS and PFOA right now is going to add 
approximately $2 billion to our existing liability of $27 
billion. So I have multiple contaminants, including everything 
from other hazardous substances to unexploded ordnance to 
chemical weapons that I have to address. It's being part of the 
entire cleanup program.
    Mr. Rouda. So, in other words, woefully inadequate funding 
to address this issue.
    Ms. Sullivan. We have the funding to address what we can 
physically do in the year.
    Mr. Rouda. Thank you.
    Ranking member, would you like to do a closing statement?
    Mr. Comer. I just want to thank the witnesses for coming 
here today and thank the bipartisan group of members trying to 
come to a solution to the problem.
    I look forward to working with this body to see that we can 
fix the problem and do something for the families and the 
citizens who have been negatively affected by this terrible 
substance.
    With that, I yield back, Mr. Chairman.
    Mr. Rouda. Thank you.
    I too would like to thank everyone for coming here to 
testify today.
    Our first goal here was to ensure that, when the regulatory 
process at the EPA is completed, the EPA sets a minimum 
contamination level, MCL that we've talked, that fully takes 
into account the CDC's recommendations and accurately reflects 
the significance of the PFAS health crisis.
    Our second goal is to get the DOD to commit to taking 
significant strides toward completing cleanup of contaminated 
sites as well as providing more assistance to families living 
in contaminated communities, including provisions for bottled 
water, installation of water filtration systems, et cetera.
    And I would also like to thank Member Armstrong for his 
comments and service as a firefighter. I represent the Orange 
County Professional Firefighters Association in my district and 
part of the International Association of Firefighters. And 
they're exposed to PFAS through installation on a regular 
basis. And like all the members here, we want to do everything 
we can to make sure that our first responders are not exposed 
to these poisonous toxins.
    To the ladies and gentlemen who are in audience here that 
took the time to share with us their stories and their 
commitment to addressing this issue, on behalf of the entire 
committee, thank you so much for coming here.
    And, finally, we just have a few housekeeping items, and 
that is to make sure that these items are presented into the 
record?
    Good.
    So, without objection, so ordered.
    Mr. Rouda. And with that, we are adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

                                [all]
</pre></body></html>
